<html>
<title> - DEFERRED MAINTENANCE NEEDS AND POTENTIAL SOLUTIONS ON FEDERAL LANDS ADMINISTERED BY THE DEPARTMENT OF THE INTERIOR AND THE USDA FOREST SERVICE</title>
<body><pre>[Senate Hearing 116-307]
[From the U.S. Government Publishing Office]





                                                              
                                                         S. Hrg. 116-307

  DEFERRED MAINTENANCE NEEDS AND POTENTIAL SOLUTIONS ON FEDERAL LANDS 
  ADMINISTERED BY THE DEPARTMENT OF THE INTERIOR AND THE USDA FOREST 
                                SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JUNE 18, 2019

                               ----------                              


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               



  DEFERRED MAINTENANCE NEEDS AND POTENTIAL SOLUTIONS ON FEDERAL LANDS 
  ADMINISTERED BY THE DEPARTMENT OF THE INTERIOR AND THE USDA FOREST 
                                SERVICE




                                 



                                                        S. Hrg. 116-307
 
  DEFERRED MAINTENANCE NEEDS AND POTENTIAL SOLUTIONS ON FEDERAL LANDS 
  ADMINISTERED BY THE DEPARTMENT OF THE INTERIOR AND THE USDA FOREST 
                                SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2019

                               __________
                               
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-803                WASHINGTON : 2020         
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                Michelle Lane, Professional Staff Member
                Nick Matiella, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     2

                               WITNESSES

Cameron, Scott, Principal Deputy Assistant Secretary for Policy, 
  Management and Budget, Department of the Interior..............     5
Lago, Lenise, Associate Chief, USDA Forest Service...............    12
Archuleta, Hon. Elizabeth, Supervisor, Coconino County, Arizona, 
  on behalf of the National Association of Counties..............    20
Puskar, Dan, President and CEO, Public Lands Alliance............    27
Wahl, Jessica, Executive Director, Outdoor Recreation Roundtable.    35

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Hiking Society:
    Letter for the Record........................................   319
Archuleta, Hon. Elizabeth:
    Opening Statement............................................    20
    Written Testimony............................................    22
    Responses to Questions for the Record........................   317
Backcountry Hunters & Anglers:
    Letter for the Record........................................   322
Cameron, Scott:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    80
Congressional letter to Chairman Lisa Murkowski and Ranking 
  Member Maria Cantwell dated October 2, 2018....................    64
(The) CorpsNetwork:
    Letter for the Record........................................   324
Governors letter to President Trump dated December 7, 2018.......    66
Jacobs:
    Statement for the Record.....................................   332
Lago, Lenise:
    Opening Statement............................................    12
    Written Testimony............................................    14
    Responses to Questions for the Record........................   312
Louisiana Legislature:
    Letter to the Louisiana Congressional Delegation dated 
      November 9, 2018...........................................    68
Manchin III, Hon. Joe:
    Opening Statement............................................     2
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Park Foundation:
    Statement for the Record.....................................   333
National Trust for Historic Preservation:
    Statement for the Record.....................................   338
Outdoor Alliance:
    Letter for the Record........................................   342
Parish Presidents of Louisiana:
    Letter to the Louisiana Congressional Delegation dated 
      November 20, 2018..........................................    74
Puskar, Dan:
    Opening Statement............................................    27
    Written Testimony............................................    29
Wahl, Jessica:
    Opening Statement............................................    35
    Written Testimony............................................    37
Western Governors' Association:
    Letter for the Record........................................   346


  DEFERRED MAINTENANCE NEEDS AND POTENTIAL SOLUTIONS ON FEDERAL LANDS 
  ADMINISTERED BY THE DEPARTMENT OF THE INTERIOR AND THE USDA FOREST 
                                SERVICE

                              ----------                              


                         TUESDAY, JUNE 18, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in Room 
SD-366, Dirksen Senate Office Building, Hon. Lisa Murkowski, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here today to examine the deferred maintenance needs 
of the major public land management agencies. This is a topic 
that I certainly care about. I know that each of you, certainly 
the folks on this Committee, have expressed concern, not just 
coming into this hearing today, but really over the years.
    When we consider deferred maintenance, we most commonly 
think of the $12 billion maintenance backlog accrued by the 
National Park Service (NPS). We have considered that here in 
the Committee at great length, and it rightfully continues to 
attract a great deal of national attention. But somehow and 
sometimes overlooked in this conversation are the deferred 
maintenance needs of the other federal land management 
agencies, including the Forest Service, the Bureau of Land 
Management (BLM) and Fish and Wildlife Service (FWS). Combined 
with the Park Service, these four agencies face a deferred 
maintenance backlog totaling $19.4 billion. That is worthy of 
repeating. Within these four agencies that govern our public 
lands, almost $20 billion in deferred maintenance backlog. This 
is an overwhelming amount that covers everything from direct 
visitor experiences to projects that will perhaps never be 
noticed by the average family. Regardless of the agency we are 
talking about, deferred maintenance needs are very real.
    For example, families visiting the Grand Canyon National 
Park should not be greeted by locked bathrooms, and campers 
should not be left without access to shower and laundry 
facilities as was the case for ten days when the sole waterline 
serving the Canyon burst last month. This is a waterline that 
has had over 80 separate breaks since 2010, so it is not like 
we did not see this one coming.
    For us in Alaska, one that hits pretty close to home is in 
Denali National Park where earlier this summer we had a service 
truck that slid off of the gravel-backfilled park road at 
Polychrome Pass. We have heard a lot about Polychrome Pass here 
in this Committee. Fortunately, the driver was not injured 
there, but we are looking at a practical reality with the 
landslides and the slumping or the slippage that is going to 
require, if not a significant overhaul, a complete rerouting of 
that road at incredible expense.
    And while recreation is a major driver of this discussion, 
deferred maintenance impacts wildlife, conservation and 
development opportunities as well.
    BLM has identified 57 miles of roads in eastern Oregon in 
need of repair. These roads support timber operations. They 
provide a way of life for wildlife managers to access the heart 
of Chinook salmon spawning areas.
    In Colorado, a project to remove and replant trees that had 
been killed by the spruce beetle on 1,100 acres of fire-prone 
land has stalled indefinitely because of the poor road 
conditions in the Rio Grande National Forest.
    In many cases, roads, bridges, wastewater systems and other 
federal assets are intertwined with the needs of local 
communities. Counties and boroughs have an obligation to ensure 
the safety of their citizens and the vitality of their local 
economy, and that means that the infrastructure they share with 
their federal neighbor, including the roads used by first 
responders, have to be well maintained, or at least maintained.
    As part of our conversation today, we will discuss the need 
to develop meaningful, creative and fiscally sound solutions to 
ensure the long-term maintenance of our extensive public lands 
infrastructure. We will consider the need for federal agencies 
to prioritize routine maintenance to prevent projects from 
becoming backlogged in the first place. We will also discuss 
the role of philanthropic donations, public-private 
partnerships and intergovernmental agreements that are in place 
today.
    I am pleased to be able to welcome our witnesses to the 
Committee to help us advance this important discussion. We have 
representatives from the Department of the Interior and the 
USDA Forest Service as well as the recreation industry, a 
county government and an advocate for public land stewardship. 
So it really represents the breadth of stakeholders who are 
involved in this issue. I know all of you are looking to 
Congress to say okay, what are we going to do, how are we going 
to deal with this? So I appreciate you being here this morning.
    I will turn to my Ranking Member, Senator Manchin, and then 
we will move to the witnesses.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Chair Murkowski, thank you for scheduling 
this important hearing and thank you all for being here.
    With the maintenance needs facing our federal land 
management agencies, it is just overwhelming. This Committee 
has spent a lot of time over the last few years reviewing 
proposals to address the National Park Service's almost $12 
billion backlog in deferred maintenance projects. And that is 
just the Park Service.
    Our national parks are one of the country's greatest ideas, 
and it falls on us to make sure that we are laying the 
groundwork for the next 100 years.
    During today's hearing we will also discuss the deferred 
maintenance backlog of Forest Service and other land management 
agencies that are in need of close examination. Taken together, 
as Chairman Murkowski has mentioned, the combined backlog of 
the deferred maintenance needs at all land management agencies 
has totaled more than $19 billion--and that is billion with a 
B. This is a serious funding problem. It is clear it cannot be 
addressed solely in the regular appropriations process.
    Even though West Virginia may not have the same amount of 
federal land as some of the Western states, deferred 
maintenance is a challenge in my little State of West Virginia. 
In my state alone, the Park Service has deferred maintenance 
needs of almost $60 million, the Forest Service has deferred 
maintenance needs of over $36 million, and the U.S. Fish and 
Wildlife Service has a funding backlog of almost $7 million. 
That is over $100 million of federal deferred maintenance needs 
in a state of about 1.8 million people.
    Addressing the maintenance backlog will allow the agencies 
to fulfill their mission of protecting nationally significant 
treasures and provide access to people that use the lands for 
hunting, fishing, shooting, hiking and all types of recreation. 
The National Park System areas draw over 318 million visitors 
each year and generate over $40 billion in annual economic 
output. The national forests draw an additional 149 million 
visitors each year and generate over $11 billion in economic 
output. A lot of this money goes into rural communities that 
have few other resources of income because of the remoteness of 
their areas.
    Improving the visitor's experience by reducing deferred 
maintenance means more local jobs and a stronger economy in 
rural America. I hope that we can use today's hearing to 
identify options and lay the groundwork to address the deferred 
maintenance needs before us.
    I want to make sure that the agencies have plans in place 
that will not only identify the highest priority projects, but 
also I want to make sure the agencies have long-term 
maintenance funding in place so we don't end up right back 
where we started.
    Let me just explain. When I was governor, I used to have 
everybody come to me and they always told me they needed money 
for this, this, this and this. But yet, any money they got they 
would use for new projects or new buildings and never took care 
of what they had. So I stopped all the money from going out. I 
said, you don't get another penny until you take care of what 
you have. And they never built it into their budget. 
Maintenance funding was never built into the budget. Everything 
but maintenance funding was built into the budget. We are going 
to find out today what is going on and how we can best address 
this.
    In my view, basically, the key is establishing a reliable 
revenue source. I understand that the Federal Government has a 
different way of approaching how we do bonding. In states, we 
would bond out. If we needed a dedicated revenue, we would bond 
it out and fix the problem and make sure it did not happen 
again.
    The Federal Government has it different because we can't, 
in appropriations especially, obligate future Senators to 
commitments of how the monies will be spent.
    Several years ago the National Park Service estimated that 
it would take $700 million each year just to keep the 
maintenance problem from getting worse. I don't know what the 
estimate is for the other agencies, but it will take a lot more 
than that to make any significant reductions in the billions of 
dollars accumulated for maintenance. In addition, the longer we 
drag our feet the worse it gets.
    I believe our best chance of getting something enacted is 
to try to pass the Restore Our Parks Act. That is from Senators 
Portman, Warner, Alexander, King and others. I am one of the 
co-sponsors. I think most of us have supported it, and this 
bill would provide mandatory funding of $6.5 billion over five 
years to address the National Park Service funding needs.
    I understand the House companion bill includes funding for 
other agencies in addition to the National Park Service, and we 
can sure explore those options in more detail today.
    Last Congress, for the first time ever, the Committee 
reported mandatory funding bills for the National Park 
Service's deferred maintenance, and at the same time we 
reported legislation to provide mandatory funding for the Land 
and Water Conservation Fund (LWCF).
    I know we have a hearing scheduled for next week, and I 
thank the Chairman very much for that, particularly on the LWCF 
program, but I think the best path forward is to find a way to 
address both the maintenance and LWCF funding issues while 
preserving the role of appropriations and authorizing 
committees in distribution and oversight of these funds.
    Now I recognize that passing bills that provide meaningful, 
dedicated funding will be a challenge, but there is broad 
bipartisan support for both the deferred maintenance and LWCF 
funding bills. I believe enactment of both these bills would 
have a lasting benefit to many of our nation's most treasured 
lands, will help improve public access to these areas and will 
enhance the economic importance of our federal lands.
    I look forward to working with the Administration and my 
colleagues to address these challenges to find a way to get 
these bills signed into law, and I look forward to hearing from 
each one of you.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Manchin.
    We are joined this morning by Mr. Scott Cameron, who is the 
Principal Deputy Assistant Secretary for Policy, Management and 
Budget at the Department of the Interior (DOI). We welcome you.
    Ms. Lenise Lago is the Associate Chief at the USDA Forest 
Service. Welcome to the Committee.
    Liz Archuleta is the Supervisor for Coconino County in 
Arizona on the Board of Supervisors. We welcome you. We thank 
you for making the trip back.
    Mr. Dan Puskar is the President and the CEO of the Public 
Lands Alliance. Thank you for what you do.
    And Ms. Jessica Wahl is the Executive Director for the 
Outdoor Recreation Roundtable (ORR).
    We welcome each of you. We would ask that you try to keep 
your comments this morning to about five minutes. Your full 
statements will be incorporated as part of the record. Once you 
have each given your statements, we will have an opportunity to 
pose our questions and engage in some back and forth.
    Mr. Cameron, if you would like to lead off?

    STATEMENT OF SCOTT CAMERON, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY FOR POLICY, MANAGEMENT AND BUDGET, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Cameron. Chairman Murkowski, Ranking Member Manchin, 
members of the Committee, thank you for the opportunity to 
discuss the Department of the Interior's infrastructure, 
including deferred maintenance.
    The Department of the Interior manages an infrastructure 
portfolio with a replacement value of about $300 billion, with 
a B, ranging from large dams and canals in the West to national 
landmarks like the Statue of Liberty and the Washington 
Monument on the East Coast. Roads, bridges, trails, water 
systems, laboratories, employee housing, visitor centers and 
schools, even comfort stations, backgrounds and campgrounds and 
drinking fountains all are part of this critical but often 
unnoticed portfolio of assets. In total, Interior is 
responsible for 43,000 buildings, nearly 100,000 miles of road 
and 77,000 structures. Interior manages approximately 20 
percent of all land in the United States and operates in 2,400 
locations across the country. Interior lands and facilities 
serve nearly 500 million visitors annually, provides schooling 
for approximately 47,000 Indian children and provides critical 
access for the public to hike, boat, hunt, fish and enjoy 
numerous other outdoor activities. Interior's facilities 
directly contribute to our bureau's ability to fulfill our very 
missions. After many years of increased visitation and use, our 
aging facilities and other vital structures are in urgent need 
of repair.
    Investment in Interior's infrastructure also benefits local 
economies. In FY 2017, activities on DOI lands in total were 
associated with about $165 billion in value added to the U.S. 
economy, almost $300 billion in economic output and supported 
almost two million jobs.
    Aging infrastructure impacts our ability to serve the 
public at Interior. Many of these assets are deteriorating with 
older assets becoming increasingly more expensive to repair and 
maintain in good condition. At the end of FY 2018, the 
Department's total deferred maintenance backlog was $16.4 
billion. The maintenance of these assets and the preservation 
of the public's access to our national parks, wildlife refuges, 
Indian schools and federal lands, more generally, is a federal 
responsibility.
    Reducing Interior's infrastructure deferred maintenance 
backlog along with modernization of our facilities are a top 
priority under this Administration. Just last week Secretary 
Bernhardt and the Vice President were at Yellowstone National 
Park working with our employees there to repair some of our 
infrastructure at the park to draw attention to the importance 
of this issue.
    All facilities and equipment naturally degrade over time as 
Senator Manchin observed just a few minutes ago. While some 
identified deficiencies are being corrected, other deficiencies 
show themselves and existing deficiencies get worse unless they 
are addressed in a timely manner. Construction, maintenance and 
repairs completed on a real property asset cannot reflect a one 
and done mindset nor is it wise or cost-effective to build or 
repair an asset and then let it run to failure.
    According to a National Academy of Science's study, private 
industry standards suggest that an amount equal to two percent 
to four percent of the replacement value of construction assets 
be invested in maintenance each year. In contrast, currently 
Interior is able to invest less than one-half of one percent 
each year.
    Accompanying the President's 2020 budget for Interior is 
the re-proposal of the Public Lands Infrastructure Fund that 
was alluded to earlier. It would generate up to $6.5 billion 
over five years for deferred maintenance needs for the 
Departments of the Interior and Agriculture. This investment 
would significantly improve the public's experience at many of 
our America's most visible, visited and treasured places.
    We are delighted that the Senate has before it, before this 
Committee, legislation to deal with the parks. We understand 
that there is related legislation on the House side that may be 
going to markup as early as tomorrow, and we eagerly look 
forward to working with the Congress to enact this legislation.
    I'd also point out that a significant portion of our assets 
are actually funded through the Department of Transportation, 
Federal Highways Administration, and we've got a great working 
relationship with the Department of Transportation on that.
    I look forward to answering questions from the Committee, 
and thank you very much for your attention to this vital issue.
    [The prepared statement of Mr. Cameron follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
       
    The Chairman. Thank you, Mr. Cameron.
    Ms. Lago, welcome.

          STATEMENT OF LENISE LAGO, ASSOCIATE CHIEF, 
                      USDA FOREST SERVICE

    Ms. Lago. Thank you, Madam Chairman and members of the 
Committee. Thank you for inviting me to share the 
Administration's position on infrastructure within the U.S. 
Department of Agriculture's Forest Service.
    I'd like to start by acknowledging just how important 
Forest Service infrastructure is to rural and urban communities 
alike. Infrastructure, whether it's roads, trails, bridges, 
visitor centers used by the public or offices, air tanker 
bases, employee housing, water, wastewater systems used by 
employees, they're all part of the infrastructure that's the 
physical link between Americans and their public lands. People 
depend on a safe Forest Service road network to get to schools, 
stores, hospitals and homes. The road system is critical to 
carrying out active management to improve forest conditions. 
Perhaps most critically, forest infrastructure provides fire 
protection for communities. Firefighters and emergency 
responders use forest infrastructure to access forest lands for 
firefighting operations, to protect communities, evacuate 
families from areas at risk and to rescue individuals from 
danger.
    I'd like to also highlight the economic benefits 
communities derive from Forest Service infrastructure. The 
Forest Service provides the most diverse recreation 
opportunities in the nation, across world-class landscapes that 
attract over 149 million visitors annually. Both directly and 
indirectly, National Forest visitor spending contributes over 
$10 billion to the U.S. economy every year while supporting 
about 143,000 jobs, mostly in gateway and rural communities. 
Outdoor recreation and tourism are the single greatest source 
of jobs on the National Forest System and the single greatest 
stimulus for local economies.
    A specific interest here today is deferred maintenance, and 
my written testimony includes tables listing various assets the 
Forest Service owns and maintains and the deferred maintenance 
associated with them. I'm not going to cite all that here but 
just to roughly identify the portfolio we're talking about. The 
Forest Service maintains 370,000 miles of road, including 6,000 
bridges. We have 158,000 miles of trails, including over 7,000 
trail bridges. We have almost 40,000 buildings, including 
administrative buildings, research buildings, fire operations, 
employee housing and, importantly, 17,000 toilet structures.
    I think you know deferred maintenance is scheduled 
maintenance that doesn't get done. This has a dollar value and 
accumulates over time. As a result of deferred maintenance, the 
state of the Forest Service's infrastructure has fallen far 
behind what's necessary to meet the needs of our forests and 
our forest users.
    Today, the Forest Service has a deferred maintenance 
backlog of more than $5.2 billion. Our capital improvement 
budget has not kept up with needed maintenance. The President's 
budget for Fiscal Year 2020 includes a public lands 
infrastructure fund that allocates monies for deferred 
maintenance on the National Forest System. Another funding 
source for Forest Service infrastructure comes from the Federal 
Highway Administration's Federal Lands Transportation Program, 
or FLTP. Interestingly, while our Forest Service has more miles 
of publicly accessible road and four times as many bridges as 
any other federal land management agency, the agency only 
receives about five percent of funding for this program.
    So in addition to funding, the agency is doing its part to 
reduce deferred maintenance by other means. We're taking bold 
steps to streamline our environmental review processes and 
speed up important work that could protect communities, 
livelihoods and resources. The revised NEPA rules will also 
make it easier to maintain and repair the infrastructure people 
need to use and enjoy their public lands, those roads, trails, 
campgrounds and other facilities. We've continued to use the 
conveyance authority provided by Congress to sell facilities 
that are no longer needed and use the proceeds to address other 
infrastructure needs. The Leasing Authority we just received 
from the 2018 Farm bill will also be helpful. Travel management 
which requires us to look at our transportation system and 
identify roads and trails most needed for access and develop a 
plan for those that are not as needed is another strategy to 
reduce deferred maintenance. And FLREA, the Federal Lands 
Recreation Enhancement Act, has enabled us to keep up with 
needed maintenance at heavily used, developed recreation sites 
across the country.
    So funding, innovations, efficiencies and partners are all 
key to taking care of these important assets. Managing healthy 
infrastructure is an important part of our job. It supports our 
ability to carry out our mission.
    I'm very grateful to you for having the Forest Service in 
this conversation today. I look forward to telling our story.
    Thank you.
    [The prepared statement of Ms. Lago follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Thank you so much, Ms. Lago.
    Ms. Archuleta, welcome.

  STATEMENT OF HON. ELIZABETH ARCHULETA, SUPERVISOR, COCONINO 
   COUNTY, ARIZONA, ON BEHALF OF THE NATIONAL ASSOCIATION OF 
                            COUNTIES

    Ms. Archuleta. Thank you, Chairman Murkowski, Ranking 
Member Manchin and distinguished members of the Committee. 
Thank you for holding today's hearing to examine deferred 
maintenance needs on our nation's public lands and potential 
solutions.
    My name is Elizabeth Archuleta, a Coconino County, Arizona, 
Supervisor, appearing today in that role and on behalf of the 
National Association of Counties, NACo, and the nation's 3,069 
counties.
    Coconino County serves as a proud gateway community to some 
of the most important places in our nation's public lands 
system, including Grand Canyon National Park, Glen Canyon 
National Recreation Area and the Coconino National Forest. Our 
county is the second largest by area in the Lower 48 states, 
spanning an area of over 18,000 square miles, and has a 
population of roughly 140,000 residents.
    We understand the need to ensure the public has access to 
federal public lands. Our livelihood as a community depends on 
it. I hope Coconino County's story will help to drive 
legislative solutions to bring deferred maintenance back down 
to sustainable levels within federal agencies.
    Sixty-two percent of counties nationwide contain federal 
land, and federal policies pertaining to these lands have a 
direct impact on the quality of life and economic wellbeing of 
our local communities, especially in gateway communities that 
host millions of visitors each year. However, the deteriorating 
state of the infrastructure on federal lands has caused 
significant alarm. When these access points fall into disrepair 
it can impact the health and welfare of residents and visitors. 
It is imperative Congress act to reduce this burden on our 
natural resources and people.
    In our county, the Grand Canyon, last year alone, hosted 
6.3 million visitors who spent $947 million. That spending 
supported 13,000 jobs in the county, providing a $1.2 billion 
economic impact to our region.
    Within Coconino County, the National Park Service estimates 
approximately $330 million of deferred maintenance at the Grand 
Canyon alone and $32 million at Glen Canyon.
    In the Grand Canyon the most pressing need is the 
replacement of the Transcanyon Water Pipeline, the water 
delivery line from the North Rim to the South Rim. This 
pipeline was constructed in 1965 and was expected to last 40 
years. The pipeline serves as the lone source of potable water 
and breaks down often.
    While the park has a plan to replace the pipeline, it is 
long past its prime and has taken far too long to secure the 
resources. This project alone will cost somewhere near $100 
million and will take 3.5 years to complete.
    Also at the Grand Canyon, there is a significant issue with 
housing and congestion due to the inadequate investment in 
facilities. Lodges and facilities are not up to date for 
today's tourism demands, nor is there adequate employee 
housing. There is vehicle congestion due to roadways not being 
adequate for the influx of visitors.
    Federal public lands in Arizona face a significant backlog 
of road and trail repairs. Nearly half of the deferred 
maintenance backlog within the state is due to poorly 
maintained roads and trails. This limits the ability of 
campers, hikers and other recreationists to enjoy our public 
lands.
    Snowbowl Road is a paved, seven-mile-long road leading to 
the Arizona Snowbowl Mountain Resort and is used for tens of 
thousands of skiers and other tourists year-round. The road is 
the main connection to one of our busiest tourist areas and was 
last paved in 1990. The annual maintenance funds do not cover 
any major repairs or future paving. Nine million dollars is 
needed for this reconstruction.
    We have a long history of partnering with our federal 
agencies. For almost a century, we have maintained Lake Mary 
Road, a 48-mile, U.S. Forest Service road that serves 2,100 
vehicles today, 70 percent of which are for recreational 
purposes. We worked with the U.S. Department of Transportation 
to secure $9 million from the Central Federal Lands Highway 
Division to pulverize, grade and repave 17 miles of Lake Mary 
Road.
    Through our Resource Advisory Committees, or RACs, we have 
jointly participated with our federal partners on projects to 
improve trails and roads on Mount Elden offering views of our 
natural landscapes.
    Counties supported the adjustments Congress made to RACs 
and the requirements under last year's Farm bill which made it 
easier for small population counties to form a RAC and conduct 
restoration work in the national forests.
    Counties are excited that Congress expanded the Good 
Neighbor Authority to county and tribal governments so we can 
have greater opportunities to work with our federal partners on 
forest health and access issues, including road construction.
    Chairman Murkowski, Ranking Member Manchin and members of 
the Committee, thank you for the opportunity to share Coconino 
County's story. Our federal public lands serve as a living 
testament to our commitment to conservation.
    Counties urge Congress to enact legislation to tackle the 
deferred maintenance backlog so that we can continue to lead 
the world in providing an outdoor recreation experience that is 
second to none and to ensure a robust economy for counties.
    Thank you.
    [The prepared statement of Ms. Archuleta follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Ms. Archuleta, thank you very much.
    Mr. Puskar.

          STATEMENT OF DAN PUSKAR, PRESIDENT AND CEO, 
                     PUBLIC LANDS ALLIANCE

    Mr. Puskar. Chairman Murkowski, Ranking Member Manchin and 
members of the Committee, thank you for inviting me to be with 
you today.
    The mission of the Public Lands Alliance is to connect, 
strengthen and represent the non-profit partners of America's 
public lands. They are operational partners of parks, forests, 
refuges, conservation lands, enhancing the visitor experience 
and contributing more than $250 million annually to their 
stewardship.
    On America's public lands, it is impossible to separate 
infrastructure from the work of nonprofit partners. Whether 
operating a residential learning center, or retail store, 
partners rely on that infrastructure.
    The Chairman mentioned Polychrome Pass. Wonderful 
organizations like Denali Education Center rely on access to 
the heart of the park if they can be able to conduct their 
amazing discovery camps and backcountry adventures for youth.
    Groups like the--at the same time, non-profit organizations 
have long helped reduce deferred maintenance on public lands.
    The Appalachian Trail Conservancy enlists almost 6,000 
volunteers to steward that 2,200 miles of NPS, Forest Service 
and private land corridor.
    The Friends of Ottawa and National Wildlife Refuge in Ohio 
recently helped fund three parking lots for hunting access and 
aided in opening three fishing and kayak access points that the 
refuge needs to have the waters of Lake Erie maintained in 
responsible ways. And it's going to take the Federal Government 
to help them do it.
    I'm honored today to share with you the stories and 
recommendations of these incredible partners and ask you to 
consider three recommendations.
    First, establish a dedicated, reliable, sizable funding 
source for the National Park Service, yes, but also the USDA 
Forest Service, Fish and Wildlife Service and Bureau of Land 
Management that reduces the existing federal public lands 
maintenance backlog by at least 50 percent. A major investment 
is needed. Philanthropy wants to help. Recreation fees will 
absolutely help and there are ways to improve both, but a major 
investment is needed. We commend the Committee, especially 
Senators Alexander, King, Portman and Warner, for your 
leadership on S. 500, ROPA. We strongly support it. Yet all 
management agencies face the challenges to resource management 
and the imperative to be accessible to all visitors. Visitors 
are rarely concerned which agency is managing the lands that 
they access but they do want the lands and infrastructure 
maintained properly. We hope you can address that.
    Our second recommendation. Incentivize philanthropy and 
non-profit support for critical deferred maintenance. 
Philanthropy may not be able to solve every problem, but 
meaningful gifts can be inspired by leveraging federal funds. 
The Centennial Challenge in the National Park Service points 
the way. We have seen tremendous work at Acadia, at Great Smoky 
Mountains. We've seen it at Harper's Ferry Park Association, 
able to raise major grants as part of the Centennial Challenge 
to restore a Civil War era home. Trails, recreation areas, 
historic structures, philanthropy will help with these, even if 
they won't help you with your sewage system. Unfortunately, the 
current version of ROPA does not offer similar leverage or 
incentives that things like the Centennial Challenge do and 
that seems to be an opportunity. As the Committee considers 
ROPA again this year, we urge you to authorize a one-to-one 
matching opportunity for federal monies similar to the 
challenge but with two caveats. First, matching donations 
should only be used for those projects truly deemed the most 
critical by our land management agencies. We need to make sure 
that that is where the big pot of money you might provide goes. 
And second, projects funded with matching donations, again at 
least 50 percent, need to be taken care of quickly. We need to 
respect what donors are bringing to the process. It will be the 
only way to inspire future gifts. We hope that by opening the 
kind of opportunity that this challenge has provided to the 
National Park Service, we might also stimulate that interest in 
philanthropy to a greater degree in some of our other public 
lands.
    And finally, our third recommendation. Expand the authority 
and capacity of land management agencies to partner with non-
profit partners. Do more with conservation corps, they're 
fabulous. Think about your hiring authority so we get the right 
people in place to do all the work we're talking about. But 
currently I must note, federal law prohibits if you bring some 
private dollars and federal dollars to the same construction 
project. The only way you can do it on federal land is if the 
Federal Government goes through all of its contracting, all of 
the FAR, everything related to it and we know that can be a 
problem, especially when hiring is tough. We urge you to 
address that loophole and see if a non-profit is willing to put 
up more than 50 percent of the funds for a construction project 
and has the sophistication to handle it, as many do, maybe they 
can take the lead.
    In conclusion, I thank you for your commitment to 
dramatically reduce deferred maintenance on public lands, for 
making that substantial federal effort and for working with us 
to find better ways to include non-profits in the process.
    Thank you so much.
    [The prepared statement of Mr. Puskar follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairman. Thank you, Mr. Puskar, I really appreciate 
that perspective.
    Ms. Wahl, welcome.

    STATEMENT OF JESSICA WAHL, EXECUTIVE DIRECTOR, OUTDOOR 
                     RECREATION ROUNDTABLE

    Ms. Wahl. Dear Chairman Murkowski, Ranking Member Manchin 
and members of the Committee, this hearing represents an 
extraordinary bipartisan opportunity to explore how we can 
improve recreation infrastructure essential to outdoor pursuits 
on our public lands and waters. We sincerely thank you for your 
leadership on this issue.
    ORR is the nation's leading coalition of outdoor recreation 
trade associations representing over 50,000 businesses and 
covering the full breadth of outdoor recreation activities. 
Together, our industry accounts for 2.2 percent of the U.S. GDP 
contributing $734 billion in economic output. Increasing 
visitation and a growing deferred maintenance backlog 
negatively impact, not only the recreation industry, but the 
millions of visitors, jobs and communities who rely on it.
    More than $1 billion of the backlog in our national parks 
is attributed to recreation assets such as campgrounds, marinas 
and trails. While the national parks hold the largest share of 
the overall backlog, all land management agencies face mounting 
maintenance needs that jeopardize outdoor recreation access and 
enjoyment.
    This situation calls for a national commitment to the grey, 
green and blue infrastructure on our public lands and waters 
and we commend the sponsors of the bipartisan, Restore Our 
Parks Act, some who are here today, for offering a solution to 
this growing problem.
    We also urge adequate appropriations for agency maintenance 
budgets and programs like the Land and Water Conservation Fund. 
We recognize recent increased appropriations to these accounts 
which we very much appreciate, and it is critical that 
appropriations continue to trend in this direction.
    However, this alone is not enough to address the multi-
billion-dollar backlog that has accrued over decades. When 
visitors participate in outdoor recreation, they spend money on 
vehicles, gear, food, lodging and more, contributing $65 
billion in annual tax revenue to federal coffers. Additionally, 
much of America's recreation infrastructure is associated with 
revenue streams such as licenses, entrance, activity and permit 
fees and excise and fuel taxes. We should work to harness the 
full potential of these private contributions paired with 
public dollars.
    We also support policies that effectively prioritize 
resources and facilitate public-private partnerships to help 
ease the maintenance backlog and enhance the visitor 
experience.
    I will briefly outline five such ideas that do not require 
new federal funding.
    One, recognize high use and revenue generating assets in 
the maintenance allocations so when sites such as marinas and 
campgrounds are in disrepair, the government is losing 
important revenue streams that could alleviate the backlog at 
these sites and in adjacent areas. Land management agencies 
should harness the fee potential of these popular sites by 
identifying assets that attract visitation and fee revenue. 
Additionally, the agencies should prioritize potential 
recreation related closures providing opportunities for 
partners to step up and continue access to these sites.
    Two, we should ensure appropriate funding for the 
Recreation Trails Program (RTP). Funded by a federal tax on 
off-highway vehicles, RTP develops and maintains motorized and 
non-motorized trails. RTP is currently funded at $85 million 
annually which is only a quarter of the $270 million that users 
pay into the program every year. If the majority of fuel taxes 
paid by users went directly into this program, millions more 
would be available to further leverage the non-federal match 
dollars and support hundreds of miles of new and existing 
trails.
    Three, promote conservation service corps to rebuild our 
nation's infrastructure. We encourage you to take into account 
the significant leveraging opportunity of conservation corps. 
These cost-effective P3s are part of the deferred maintenance 
solution. By partnering with corps, agencies can do more with 
their limited budgets while developing the next generation of 
conservation stewards and an infrastructure workforce.
    Four, elevate successful models of innovation and public-
private partnerships. P3s can help tackle the $78 million in 
campground deferred maintenance in our national parks alone and 
the maintenance backlog in our parks, marinas and other sites. 
Additional fee categories can be used at improved campsites for 
wi-fi access, RV hookups and rentals of cabins, yurts, 
recreational vehicles, equipment and more.
    Five, fully implement current authorities like the 
conservation finance models that have supported mountain biking 
trails in the Wayne National Forest and the new Farm bill 
authorities that connect outdoor recreation to rural economies 
and forest restoration projects.
    As Congress tackles our nation's infrastructure challenges, 
ORR stands ready to partner with you on incorporating a 
recreation title in any infrastructure measure that's moving 
forward and on furthering today's discussion, strategies that 
will preserve sustainable recreation for future generations.
    We look forward to working with you to support the places 
Americans cherish while improving the health and vibrancy of 
our communities and economy.
    Thank you.
    [The prepared statement of Ms. Wahl follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Thank you, Ms. Wahl, and I appreciate all of 
you for the constructive proposals you have outlined, kind of 
putting it in context here.
    You think about the road piece of the maintenance matters. 
You mentioned, Mr. Cameron, 100,000 miles of road within 
Interior's jurisdiction. I think you mentioned, Ms. Lago, that 
within Forest Service, 370,000 miles of road. Just think about 
what it takes to maintain those roads on a daily basis. It just 
sucks up so much of this maintenance budget. That is something 
that, I think, we need to look very keenly at.
    I want to start my questions with you, Ms. Lago. Unlike 
what we have in the Department of the Interior, Forest Service 
does not appear to have a comprehensive, longer-term strategy 
for prioritizing and addressing the deferred maintenance.
    Back in 2017 the USDA Office of Inspector General 
recommended the Forest Service develop an integrated strategy. 
In the report language in the FY18 Approps bill, we directed 
you to develop that strategy and the agency said it was going 
to submit a comprehensive capital improvement plan in Spring of 
'19. We have not seen the plan yet. Can you tell me what the 
status of that plan is and what the criteria will be for 
prioritizing projects that are contained within that deferred 
maintenance plan?
    Ms. Lago. Sure, thank you, Madam Chairman.
    So, as you described, we have completed a draft 
comprehensive capital improvement plan. And I'll talk about, 
maybe, three stages of it.
    The first component for the capital improvement plan is our 
assessments of our various assets. So noting that the road 
system is vast, we don't sample or we don't inventory all the 
roads on an annual basis. Rather, we characterize the condition 
of roads using statistical sample basis so to get some idea of 
baseline conditions for roads and to prioritize the road 
system. For our facilities, we have a five-year rolling 
assessment of facility conditions. For dams it's two years, or 
excuse me, for bridges it's two years. And for dams, we're 
working at getting our inventory in a five-year cycle of 
assessment. So based on that assessment, the second phase is 
using a model, the criteria for prioritizing is first of all, 
access to improving forest condition projects. The second is 
recreation and public access. The third is a facility or a site 
being an economic driver. Fire operations is a fourth. So 
those, the conditions plus the priorities, drive a model that 
help us prioritize projects and then I said there were three 
components.
    The third component is some local reflection about 
projects, you know, from the local, regional managers' 
perspective.
    The Chairman. So, let me ask, Ms. Lago, because I want to 
get to Mr. Cameron on this too. But it does not sound like you 
are ready with your plan.
    Ms. Lago. We're circulating it among the leadership to get 
their feedback on it and expect to deliver it up here shortly.
    The Chairman. Well, I would appreciate any level of urgency 
that you can assign to it. We are really trying to highlight 
where we are with this backlog.
    One of the things that we know is we are really in bad 
shape when it comes to the deferred maintenance.
    I would like to think that we are not spending so much time 
trying to figure out whether or not we have a problem. We have 
a problem. But what is our plan? What is our prioritization? We 
know that we don't have all the money that we want, but we do 
need to get moving.
    Let me turn to you, Mr. Cameron, real quickly, and this 
relates to Fish and Wildlife Service because as we look at the 
budget justifications that are provided to Congress, the Fish 
and Wildlife Service has actually been able to reduce its 
deferred maintenance from approximately $3 billion in FY09 to 
$1.3 billion in Fiscal Year '18.
    Of the four land management agencies, they were the only 
one to be able to reduce their deferred maintenance. They 
actually cut it by more than 50 percent. I guess I am trying to 
figure out what are they doing right that the other agencies 
are not able to adopt. Can you give us some ideas as to what 
they have been able to implement that we might be able to 
replicate elsewhere?
    Mr. Cameron. One thing I can say, Chairman Murkowski, is 
that in the President's budget request for the Fish and 
Wildlife Service, the National Wildlife Refuge System and the 
National Fish Hatchery System, we prioritized, trying to 
protect those assets. But still the challenge is enormous 
compared to the resources that are available.
    I'd be delighted for the record to provide you how the Fish 
and Wildlife Service has prioritized this and approached it 
though.
    The Chairman. Well, I would appreciate that, and I think it 
could be instructive to everyone whether it is what Forest 
Service is doing with their plans or elsewise. We are always 
looking for best practices. If somebody is actually doing 
something right, we want to recognize that.
    Let me turn to Senator Manchin.
    Senator Manchin. My turn?
    The Chairman. You are up.
    [Laughter.]
    Senator Manchin. First of all, thank you so much. I really 
enjoyed everyone's presentations.
    Ms. Wahl, you are coming at it from the private sector, but 
basically you had recommendations of how we could start curing 
some of this, and I really appreciate that.
    I will come back to Mr. Cameron and Ms. Lago, basically 
coming from the government's point of view.
    On some of the things that Ms. Wahl talked about, is that 
not doable? Why would you all not be taking advantage of some 
of that opportunity for public-private partnerships? Because I 
just don't think we can print enough money to take care of the 
problems. And the public is not going to stand for us just 
throwing money at something when we never cure the problem.
    I think, Mr. Puskar, it comes back to you from the 
standpoint of public lands availability, people that will pay 
or will they pay something or should we not have a kind of a 
combination of some that is open-ended to where they can just 
enjoy the beauty of what we have. But if they want to enjoy 
some of the privileges and entrees, if you will, then they are 
willing to pay a reasonable fee. This has to be worked out some 
way. And if it takes legislation, I was just talking, I think 
that Chairman Murkowski and myself, in a bipartisan way, would 
find a way to work with all of you.
    Ms. Archuleta, you are right in the thick of it there, you 
know? I know, and I have been there. It is so beautiful.
    But then does that beauty put pressure on the resources and 
impact the community from a political standpoint locally? Does 
that put pressure on Congress, and can we withstand that until 
we have something to show for it?
    So I would go to you two first, Mr. Cameron and Ms. Lago. 
The things that were recommended. She had five specific points. 
I don't know if you all heard them, if you want me to repeat 
them or she can repeat some of them, but they are pretty 
straightforward. It is basically public-private partnerships, 
okay? And I think that would sell well with all of our 
colleagues.
    Mr. Cameron, if you want to comment on that?
    Mr. Cameron. Yes, thank you, Senator Manchin.
    I think public-private partnerships are certainly a 
valuable way to move ahead. I would point out that there are 
some models the Committee might want to look at as Senator 
Heinrich and Senator McSally and Senator Gardner know. The 
Bureau of Reclamation, for instance, has situations where local 
irrigation districts manage the infrastructure on Reclamation 
projects. That might be a model that we might be able to think 
about in this context.
    Senator Manchin. I think one of the simplest things, and I 
don't mean to interrupt you but our time will be running short.
    Recognizing high-use and revenue-generating areas is pretty 
simple, you know. What has the highest activity? What is a 
reasonable fee to try to keep that repairable, if you will? 
Have you all done an inventory on that?
    Ms. Lago, do you want to respond?
    Ms. Lago. Yes, sir, Senator Manchin.
    As I mentioned, part of our prioritization scheme includes 
a consideration of revenue generation or the economic 
importance of the asset in question. But also, the opportunity 
for partnerships for that asset.
    Ms. Wahl mentioned the Wayne National Forest and their 
conservation finance project for a mountain biking trail. Your 
question was how do we get more of these? That particular tool 
is new and, you know, folks aren't as skilled or not as 
familiar with how to go about attracting that capital. But it's 
definitely----
    Senator Manchin. Again, I hate to interrupt you on this, 
but I can tell you this, you have some states here doing some 
very, very innovative, creative things. Have you been 
partnering up or looking at the states that have been most 
successful? Have you used some of those as your models, Ms. 
Wahl? Have you used some of the states as your models?
    Ms. Wahl. Yes, states and counties.
    Senator Manchin. I will give you an example. We do skeet 
shooting in West Virginia in all of our state parks because 
people wanted some type of activity and it has been wonderful, 
it produces a lot of revenue for the parks. We put magic carpet 
rides in for snow tubing because people wanted to use the 
areas. But they paid for it and they are not griping. I mean, 
they love a good facility.
    Ms. Lago. Right.
    Senator Manchin. I am just thinking we are behind the curve 
because the mentality is don't worry, we have a printing press 
here and we will just make more money.
    Somehow we have to get you all partnering up with the ones 
that have been successful.
    Ms. Archuleta, if you can speak from a standpoint of a 
local, boots-on-the-ground, putting your face and your ability 
forefront in the public trust, if you will.
    Ms. Archuleta. Absolutely.
    Senator Manchin. What do you think you can do?
    Ms. Archuleta. Well, yes, sir.
    I do want to address it one way. I do want to talk about 
the local economy and recreation economy and what and how that 
affects counties.
    We have an example in Coconino County where we recently 
completed a comprehensive study that looked at the impacts of 
the infrastructure on the North Rim of the Grand Canyon and its 
affect on our tourism economy. And the North Rim is only open 
May 15th to October 15th. And we found that that is due to the 
fact that pipes may freeze during colder climates.
    Well, we did a study. What if it was open two weeks before 
that and two weeks after that? Those four weeks, what would it 
do to the economy in Coconino County?
    We found that if we were open for four more weeks it would 
generate $14 million during just that four-week operating 
season. So imagine what could be obtained if we appropriately 
added infrastructure to keep the North Rim operating year-
round.
    Senator Manchin. When I go to the North Rim, do I pay for 
that?
    Ms. Archuleta. Yes, you do.
    Senator Manchin. I paid coming in.
    Ms. Archuleta. You do.
    Senator Manchin. I know I did before.
    Ms. Archuleta. Yes.
    Senator Manchin. I didn't know if that----
    Ms. Archuleta. Both the North and the South.
    Senator Manchin. That is a specific fee for each one?
    Ms. Archuleta. Correct.
    Senator Manchin. Not just one fee that covers all?
    Ms. Archuleta. Oh, it depends which entrance you go in. It 
covers all but the North Rim is only open, you know, for a 
shorter period of time. And so what we're saying is that people 
want to go to the North Rim because, of course, the vista is 
different, the experience is different. And it's only open a 
shorter period of time.
    Senator Manchin. Have the fees been adjusted?
    Ms. Archuleta. Oh, fees have been adjusted throughout the 
route.
    Senator Manchin. And people are not complaining about fees? 
You do not get feedback on the fees?
    Ms. Archuleta. No, they're not, but they want to have a 
quality experience when they go.
    Senator Manchin. Gotcha.
    Ms. Archuleta. So they do complain about that when we have 
to bring in porta-potties, when we have to go to Stage 2 
conservation of water when you're using paper plates and 
plastic forks because we don't have water, because the pipeline 
is broken, to wash dishes.
    Senator Manchin. Gotcha.
    Ms. Archuleta. When, you know, the lodges are subpar, 
people complain about that.
    The other thing is we find ourselves where people are 
unprepared to have a tourism experience that is in a very rough 
terrain. We have people going, you know, in flip flops to hike 
down into the Grand Canyon.
    [Laughter.]
    And so search and rescue is called in and counties are the 
ones that bear that burden. We're, you know, we're in charge of 
search and rescue. So we go and have law enforcement.
    Senator Manchin. I don't think we can legislate for 
ignorance.
    [Laughter.]
    Ms. Archuleta. Right.
    Senator Manchin. Thank you.
    Ms. Archuleta. I agree, thank you.
    The Chairman. Thank you.
    It is Senator Daines who is next.
    Senator Daines. Thank you, Chair Murkowski, Ranking Member 
Manchin.
    I think of our national parks as the Department of First 
Impressions. They are truly a part of what set America apart 
from the rest of the world. And I get to Chair the National 
Parks Subcommittee, a great honor. I have made finding a 
solution to our growing maintenance backlog a top priority of 
mine, and thankfully we have an Administration that has also 
prioritized this issue. In fact, just last week, of all the 
places that Vice President Pence could be, last week, last 
Thursday, he was in Yellowstone National Park, along with 
Interior Secretary Bernhardt to bring attention to this growing 
backlog. I would like to thank them both for coming to 
Yellowstone.
    The Park Service estimated that Montana alone has a $326 
million maintenance backlog with Glacier National Park totaling 
$131 million and Yellowstone National Park which we share with 
Wyoming. I think the Senator from Wyoming would say it is more 
than a share. They have most of it, actually, in Wyoming. That 
backlog is growing close to $600 million. And in conversations 
that I've had with Cam Sholly, I wouldn't be surprised if that 
number, perhaps, goes up even higher.
    If left unchecked, there would be impacts on our outdoor 
economy. There will be impacts to our gateway communities like 
Gardner, like Cook City, like Kalispell and others.
    Thankfully Congress is working together and taking action 
again with this bipartisan Restore Our Parks Act. I am grateful 
the Ranking Member on the Subcommittee, Angus King, and I and 
the rest of the Committee are working in a truly bipartisan 
fashion to put legislation forward that would bring a solution 
to this problem. I hope we can pass this out of Committee soon 
and ultimately send this to President Trump's desk.
    But it is going to take more than just money to fix this 
issue. Mr. Cameron, Yellowstone Park just finished the 
rehabilitation of the canyon overlooks and trails which helped 
facilitate more access to this incredibly beautiful area. There 
are many more projects in Montana that increase public access 
and the one in Yellowstone to improve the safety of employee 
housing.
    The question is, how does the National Park Service 
prioritize these projects? Is it random? Do you have a system 
in place that prioritizes safety and access projects like the 
ones in Montana over others?
    Mr. Cameron. Senator Daines, thank you for that question. I 
know Secretary Bernhardt was delighted to bring the Vice 
President out to Yellowstone last week.
    And you're right that the scale of the problem is enormous, 
not just in Montana-Wyoming, but nationwide, as Senators on the 
Committee have observed.
    The Park Service has a long, established priority system 
with multiple, complex variables to set priorities. They've 
been following this process for quite a long time. Public 
health and safety, employee health and safety and visitor 
access are all of the priorities.
    I'd be happy to, you know, submit for the record a detailed 
description of the Park Service's rather complex and well 
thought out ranking process.
    Senator Daines. That'd be helpful. Thank you.
    How do we facilitate more partnerships with federal 
agencies, for example, like the DOT or private groups like the 
Montana Conservation Corps, to address the maintenance backlog 
in the parks?
    Mr. Cameron. So volunteer organizations, non-profit 
organizations, state and local government partners are really 
important contributors to the challenge. I suspect that, you 
know, there are some tax-related bonding issues that might get 
in the way of public-private partnerships in terms of private 
sector financing. There are potentially challenges with who 
manages the construction contract, as was mentioned earlier, 
whether the federal acquisition regulation applies. So those 
are things that could be explored to make public-private 
partnerships more effective and more common.
    As I mentioned a couple minutes ago, before you were able 
to join the hearing, the Bureau of Reclamation has an 
interesting model where local water districts manage most of 
the infrastructure on Reclamation projects and perhaps that's a 
model that we might want to explore.
    The Commissioner of Reclamation would not want me to miss 
the opportunity to point out that she has an infrastructure 
issue in the Bureau of Reclamation as well, but that's another 
topic.
    Senator Daines. Thank you.
    Speaking of maintenance backlog, I want to talk about the 
Forest Service.
    The Forest Service also has a growing backlog. In fact, 
Montana has the second largest share with $459 million in 
deferred maintenance. This can have a major impact on Montana's 
outdoor economy, estimated to be around $7 billion annually.
    Our recreation community is already facing trail closures 
in forest lands across the state for bureaucratic and 
litigation reasons and is adding insult to injury when the 
Forest Service also closes trails and access because they are 
not able to maintain them.
    Ms. Lago, I have heard concerns from private as well as 
public groups that are willing and able to provide trail 
maintenance and other services that the red tape and 
bureaucratic process can be burdensome and they disincentivize 
these partnerships. What is the Administration doing to 
streamline the process to ensure that these groups and these 
coalitions can volunteer to help address this backlog?
    Ms. Lago. Thank you, Senator Daines.
    And you're right, volunteers and conservation organizations 
are very important to help us keep up with needed maintenance. 
Last year we had over 1,900 FTEs, that's full-time equivalents, 
volunteering in the trail program alone. We just couldn't do it 
without them.
    In the past year we've worked at streamlining and improving 
our agreements process. So for us to work together with 
somebody that wants to do project work, we need some kind of 
instrument, agreement. And we've had inadequate and 
inconsistent training across the agency for people who knew 
what type of instrument to use. That's some of the red tape 
folks are telling you about. But we have added capacity in our 
agreements' staff, streamlined training and made it available 
online. So we're working hard to meet people where they are, 
who want to help us do those maintenance projects.
    Senator Daines. Thank you.
    The Chairman. Thank you, Senator.
    Senator Heinrich.
    Senator Heinrich. First, I want to thank the Chair and the 
Ranking Member for holding this hearing and in particular for 
including the Bureau of Land Management, the U.S. Fish and 
Wildlife Service, the U.S. Forest Service, as well as our 
National Parks. I think a lot of people are aware of the Park's 
backlog, but the vast majority about the recreation and 
economic activity, in many of the Western states, actually 
happens on non-Park Service public lands.
    I want to touch on what Senator Daines raised for just a 
moment, because one of the biggest problems in terms of 
limiting volunteers and activities that can really help 
leverage what the agencies can do is the lack of staff that are 
actually assigned to help volunteer groups and private 
organizations do that work.
    You know, today, outdoor recreation is the single largest 
driver of activity on our public lands, but our assignment of 
staff is stuck decades in the past. We have seen this in many 
places in New Mexico where there is real willingness to get on 
the ground and do something, but there is no one assigned at 
the staff level to facilitate that.
    Mr. Cameron and Ms. Lago, what are the Forest Service and 
the Department of the Interior doing to change that?
    Mr. Cameron. Senator, I appreciate that question. If we can 
identify specific instances, we'd be delighted to look at those 
individually. Across the board, the Secretary has made it clear 
that he's interested in promoting partnerships with non-profits 
and state and local governments. And we're eager to perhaps 
more effectively communicate that message and that need to 
actively engage with volunteer groups. Volunteers provide 
roughly 10,000 FTE worth of activity at Interior.
    Senator Heinrich. No, I realize that.
    What I am suggesting is that we look at the number of 
people who are assigned to traditional activities whether that 
be grazing permits, forest management, oil and gas permits and 
compare that with how many were actually assigned to facilitate 
permits and also public-private partnerships to help facilitate 
some of this.
    Ms. Lago?
    Ms. Lago. Sure, I just want to completely agree that as 
people who want to partner with us have gone up and up and up, 
the staff available for those programs has gone down. Part of 
the reason for that is over the last ten years, you know, we 
get our budget in program funding. Fire is a program. 
Recreation is a program. Grazing is a program. And as we have 
had to devote more of our budget to firefighting, the budgets 
in those other programs have decreased. I think with the fire 
funding fix we're going to be----
    Senator Heinrich. Yes, that is exactly where you should be 
going because we have actually, you know, this Committee worked 
very hard to fix the fire borrowing situation. And as an agency 
you need to take advantage of that----
    Ms. Lago. Agreed.
    Senator Heinrich. ----to be able to fund those positions.
    Ms. Lago, can the Forest Service afford to maintain the 
road system that you have today?
    Ms. Lago. I think, well, no. I think the answer is no, not 
370,000 miles of road. We don't open all of the road system to 
passenger travel. Only about 18 percent is open.
    Senator Heinrich. Right.
    Ms. Lago. About 30 percent is what we call ``put to bed.'' 
It's blocked off and not accessible but we keep it because we 
can potentially need to open it for firefighting or some kind 
of emergency access. But no, we don't.
    Senator Heinrich. Which is why travel management is so 
important as you try to address these infrastructure needs.
    Ms. Wahl, I want to ask you, has your organization ever 
done analysis to figure out how much additional annual economic 
output or economic activity would be leveraged if our public 
lands were fully capitalized? If the campgrounds were all open, 
if the trails that are on the maps today were open, if the 
basic infrastructure, the bathrooms in Yellowstone and the 
things that we hear about, if all of that was fully 
capitalized, do we have any idea what that would mean for 
additional economic activity?
    Ms. Wahl. Thank you.
    We certainly don't have an idea of what the total of that 
would be, but we have great anecdotes and stories of just a 
campground that the Tennessee Valley Authority partnered with a 
P3. It was closed. No revenue. No economic activity in the 
local community. This P3 partnership opened the campground. 
It's at full capacity every day it's open in the year. So, not 
only is, you know, the economy and this rural community 
benefiting, but certainly the Forest Service and the Tennessee 
Valley Authority because they're actually getting money from 
this contract. So we have examples of that all across the 
board. It would be great to see, you know, the full breadth of 
that.
    Senator Heinrich. I suspect that story could be replicated 
time and time again in state after state after state.
    I am out of time, but I want to point out the fact that the 
North American Model of Wildlife Conservation is the envy of 
the world, because for the better part of a century hunters and 
anglers have put their money where their mouth is. They stepped 
up and they taxed themselves to say if we don't do this, we are 
not going to have a sustainable resource.
    I think we might owe it to ourselves to start having that 
conversation around outdoor recreation as well.
    The Chairman. I will join you in that conversation, 
Senator.
    Senator Lee.
    Senator Lee. Thank you, Madam Chair.
    There are a lot of things the Federal Government does, a 
lot of them are unpopular. Of the most unpopular parts of the 
Federal Government, you probably have the IRS. Even more 
unpopular, Congress, whose approval rating seems to hover these 
days between 9 and 11 percent, making it less popular than 
Fidel Castro in America.
    Senator King. It depends on whether they poll immediate 
family.
    Senator Lee. Yes, yes, exactly, exactly.
    [Laughter.]
    It might even be worse in some of those polls.
    But one of the few things the Federal Government does that 
is popular exists in the National Park Service. People love 
their national parks. They want to be able to use them. They do 
not want to see them threatened. So many are concerned, 
particularly in states like mine where we have a lot of 
national parks that are national treasures. People are 
concerned when they hear about the maintenance backlog and the 
fact that 62 percent of the public lands backlog can be found 
within the National Park Service. That is of concern to them.
    We will start with you, Mr. Cameron.
    Would you agree that under certain conditions the public 
interest might be better served by finding ways to fund the 
backlog and to make sure that we maintain, adequately, our 
national parks? Would you agree with that as a general 
statement?
    Mr. Cameron. I certainly would, Senator Lee. I think we 
need to look at any and all options and seriously consider 
them.
    Senator Lee. Would you agree with me that there are some 
lands that have been identified as suitable for disposal by the 
Federal Government?
    Mr. Cameron. Yes, Senator, the General Services 
Administration (GSA) runs an annual process to try to identify 
those.
    Senator Lee. Do you have any sense as to what kind of 
revenue could be generated if that land were disposed of?
    Mr. Cameron. Not off the top of my head. I think the 
estimates are probably in the single billions of dollars, but I 
don't know the latest estimate from GSA.
    Senator Lee. Okay. It is a large sum of money, certainly.
    Do you know how often the BLM evaluates its lands for their 
suitability for disposal?
    Mr. Cameron. So BLM has a regular planning process on a 
district-by-district basis. It's on a cycle. If memory serves 
me correctly, I believe it's a five-year cycle.
    Senator Lee. Okay.
    Do you have any idea approximately how many acres of land 
have been deemed suitable for disposal?
    Mr. Cameron. No, I do not but I'm happy to provide that for 
the record.
    Senator Lee. Okay.
    Would you agree that under certain circumstances it might 
make sense to sell some of that land in order to be able to 
keep up with the maintenance backlog in order to overcome it?
    Mr. Cameron. So the General Services Administration has a 
process in place for divesting of federal land and federal 
assets and at the tail end of the process it can be sold, yes.
    Senator Lee. Ms. Lago, how about you? Do you know how many 
acres of land, approximately, the Forest Service has identified 
as suitable for disposal?
    Ms. Lago. I don't believe we have authority for disposing 
of land. We have authority to convey facilities and the land 
associated with it, but we don't typically dispose of land, we 
use it for advantageous land exchanges where we're trying to 
block up ownership or obtain some critical wildlife habitat or 
connectivity or something like that.
    Senator Lee. Okay. So you are saying there is no regular 
evaluation of Forest Service land to consider whether all of it 
needs to be under federal ownership?
    Ms. Lago. That's right.
    Senator Lee. Okay.
    Mr. Cameron, let's get back to you for a minute.
    Across all the federal land management agencies, compliance 
with federal regulation contributes to the massive maintenance 
backlog, the very same backlog that we are here to discuss 
today. When your agency estimates the cost of a project, do you 
separate the cost of regulatory compliance from the rest of the 
cost of construction?
    Mr. Cameron. Senator, I don't believe we do that. We take 
for granted that we have to comply with the federal acquisition 
regulation. We take for granted that we have to comply with 
Davis-Bacon Act where it applies, for instance, and various 
other constraints.
    I'd point out that the National Historic Preservation Act 
can sometimes produce some challenges. If we need to try to 
reproduce concrete the way it was made in the 1720s, that can 
be a lot more expensive than the way it's made now.
    Senator Lee. Yes, I have heard. You can't just get that at 
the Home Depot.
    It seems to me that it would be very helpful if you could 
calculate that cost either on an individual project level or in 
addition to that also having it on the maintenance backlog 
level as well so that we can figure out what percentage of the 
maintenance backlog generally is attributable to regulatory 
compliance and what percentage of the cost on any particular 
project is attributable to the same?
    Mr. Cameron. Senator, I know we've done some thinking along 
those lines. What I'd like to do is respond for the record to 
try to give you a more accurate and complete answer about how 
we might approach that.
    Senator Lee. Okay.
    I see my time has expired. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Lee.
    Senator King.
    Senator King. Madam Chair, I also want to thank you and the 
Ranking Member for this hearing on this really important 
project.
    I am sitting here thinking about politics and partisanship. 
This is probably the most conservative bill before the Congress 
in every sense of the word. Conservative because we are 
literally conserving. We are protecting something that has been 
handed to us by our forefathers and mothers and predecessors. 
But it is also conservative because it is all about paying down 
debt.
    It has not been mentioned so far today, but deferred 
maintenance is debt, just like it is debt on the balance sheet. 
I think once it is looked at that way, it eases, it seems to 
me, some concerns that have been expressed about this bill. We 
are not adding to debt. We are actually diminishing our 
national debt because these problems will have to be taken care 
of someday and, when they are, it will be more expensive. So 
there is interest on the debt.
    So I think that is why this is so important, and I am so 
glad to see that there is bipartisan support for these various 
bills.
    Number two, one of the reasons this is urgent for me is I 
did a little calculation. I've looked at the top ten most 
visited national parks and their acreage. It is a very 
interesting calculation of visitors per acre and that is a 
proxy for pressure on the park. It is really interesting. The 
Great Smoky Mountains, the most visited national park in the 
country, which was a little surprising to me by a factor of 
two, 21 people per acre, 21 visitors per acre. Zion, 29. More 
typically, Yosemite, 5.3. Yellowstone, 1.8. Acadia National 
Park in Maine, 74 people per acre. In some cases, 10 or 20 
times the visitation.
    That is why this is an urgent problem for me, because our 
park is being loved to death. It is an absolutely wonderful 
place, and that is why all those people go there, 3.5 million 
people a year to one park in one state that has a population of 
1.3 million. So almost three times the population of Maine goes 
to Acadia National Park every year.
    This is an urgent priority both in terms of our 
responsibility to our predecessors, but also our responsibility 
to the people of America that enjoy these wonderful places.
    This has been a great hearing because it has been exactly 
what a hearing is supposed to do, produce some good ideas. I 
love the matching idea. I am an original co-sponsor, as you 
know, of the Restore Our Parks Act.
    We have a program in Maine called the Land for Maine's 
Future Program. It goes back to the '80s. And the first bond 
issue was $35 million. We spent $28 million buying the fee 
simple value of land--just putting in dollars and buying it. 
The next $7 million preserved more land than the first $28 
million because we finally figured out about matching and 
conservation easements and things other than just simply buying 
the title outright.
    I think matching is a terrific idea. There is, as you have 
testified, a philanthropic community that is very interested in 
this and we can basically make our money go further. And I 
think that is a very important concept.
    Public-private partnerships, again, make our money go 
further.
    Volunteers, people that want to spend a summer in the 
national park. Give them free accommodations in exchange for 
working five hours a day on trails. I mean, there is no end of 
opportunities here.
    And Ms. Wahl, I like your idea about fix the fee generating 
places first. If you have places that are generating fees and 
they are not operating, fix those first because then you get 
some additional revenue.
    If you can find a question, you are welcome to it.
    I haven't gotten to a question yet.
    [Laughter.]
    But your testimony has been so helpful and succinct. I do 
believe that we have to talk broadly about the Forest Service 
and Bureau of Public Lands, but I do not want to lose the focus 
on the national parks. I do not want the best to be the enemy 
of the good.
    We have a very solid bill with a lot of support in both the 
House and the Senate from the Administration. And I understand, 
Madam Chair, we are looking forward to a possible markup on the 
Restore Our Parks Act in the foreseeable future? That is a 
pretty indefinite term.
    [Laughter.]
    That was indefinite enough to get a nod from you. I 
appreciate that.
    [Laughter.]
    But I think what we are talking about here today is so 
important to the American people.
    Mr. Puskar, perhaps you can touch on the idea of matching 
and other ways to make our money go further.
    Mr. Puskar. Well, I think especially when we talk about 
Acadia, a park founded on private citizens coming together to 
give of their land, to even create this in the first place.
    Senator King. It helps when one of the private citizens is 
named Rockefeller, but we won't go into that.
    [Laughter.]
    Mr. Puskar. But you're absolutely right, but a lot of them 
aren't named that. The number of people supporting the Friends 
of Acadia these days is astronomical. And it's not just the 
Rockefellers, God love them. Thank God they were here for us 
when they were. But it's the folks that want to say, hey, I 
want to be here. I want to give my entrance fee money, but then 
I want to do a little bit more. I'm going to become a member of 
the Friends of Acadia.
    The opportunity for matching, I do think it is absolutely 
essential. We know that there is a philanthropic component to 
being interested in our public lands writ large. We know this.
    But incentivizing it, especially when the challenge is so 
big and when we know we have a model that already works, seems 
to be a no brainer for ensuring we move forward productively, 
not just for the Park Service, but it's certainly been a dream 
of mine. Wouldn't it be amazing if we took advantage of the 
amazing challenge cost share authorities that U.S. Forest 
Service, BLM, Fish and Wildlife Service already have and 
provide more dedicated opportunities with that kind of framing, 
like we've done with the Centennial Challenge?
    Senator King. Well, I intend to look into adding language 
to the Restore Our Parks Act, additional authority. If you have 
thoughts, any of you, on how to do that----
    Mr. Puskar. We'd love to work with you.
    Senator King. ----please be in touch with my office.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    On Friday I took the opportunity to take my young interns 
on a field trip. There were 12 of us, and we went over to 
Theodore Roosevelt Island. It was a day of service with the 
Park Service. We spent about, I don't know, four hours cleaning 
up the island there.
    They would not trust us with any chainsaws, but we did have 
rakes and wheelbarrows. And it was a good reminder to me of the 
volunteer effort. But at the same time, I looked at the 
volunteers who had come for that one day--and that is a pretty 
small little island--and recognizing the level of visitorship 
that it receives. You almost feel like you just can't make a 
difference because the need is so great and there are so few of 
you. But if you take that approach, we are never going to get 
anywhere.
    But it is a reminder of the great partnerships that are out 
there that exist. We just need to replicate them about another 
363 days out of the year. So how we work to do that is going to 
be important.
    Let's go to Senator McSally.
    Senator McSally. Thank you, Madam Chair. Thanks to all our 
panelists.
    Welcome Supervisor Archuleta. It is great to see you here. 
I am proud that you are representing Arizona in this 
conversation.
    We are so proud that we have the Grand Canyon in our state 
which is this amazing treasure that brings people from all over 
the world. I was actually up there for the Easter Sunrise 
Service this year with my mom, and it ended up being a bucket 
list type of event.
    We know the importance that these treasures have and not 
just so people can come experience places like the Grand 
Canyon, but it is for ecotourism and for our communities. And 
you know right well, as a gateway community, how important that 
is.
    Can you elaborate more on the importance of the pipeline 
project getting completed as soon as possible and the 
implications should it not be completed because of what is, 
again, what draws people from all over the world to the Grand 
Canyon and the impact that that would have, not just on the 
park, but also on local communities in our state?
    Ms. Archuleta. Well, thank you very much, Senator McSally, 
and thank you for the question.
    So what we find is the pipeline continuously breaks because 
of rockfalls, and when it breaks it creates a tremendous burden 
on the visitor and also on the park.
    And so when people are coming to the Grand Canyon and, you 
know, people see it as the crown jewel of parks and they want 
to have this experience. Then they go and they need to use 
portable restroom facilities. They're eating from paper plates 
because the restaurants cannot use the water to wash dishes. 
The Park Service is constantly scrambling to figure out how 
they can haul water to the park when the pipeline breaks. And 
so now, they just anticipate it. Right now, they're going to 
level two water restrictions. They're making arrangements for 
water to be hauled, to be stored in tanks because they 
anticipate the pipeline is going to break. And so when you have 
this and people begin to hear about it, visitors, not only is 
the experience diminished, but then people question do we 
really want to go to the Grand Canyon National Park?
    This is a tremendous burden for the economy because we 
depend on tourists for our economy. And as a gateway community, 
Flagstaff, Williams, all of the surrounding communities that 
struggle, it then creates a burden for the counties and for our 
economy.
    I'd mentioned just about the North Rim, and if that was 
open for four weeks longer it would mean a $14 million impact 
to our economy, additional money coming in. So when you look at 
our communities, the Grand Canyon National Park is the 
lifeblood for our community, and we need to make sure that that 
water pipeline is taken care of. It was supposed to last 40 
years and it was built in the 1960s. And here it is 2019. It's 
one of those situations where it needed to happen yesterday.
    Senator McSally. Exactly.
    And you mentioned in your testimony the importance of the 
partnership between local communities and the Federal 
Government.
    I have climbed or hiked Mount Elden many times and am very 
familiar with Lake Mary Road. Can you share a little bit more 
about how important it is to have local stakeholders like the 
counties and the cities involved and working with the Federal 
Government related to these maintenance issues because we are 
all in this together?
    Ms. Archuleta. Absolutely.
    So, in regards to the roads, I spoke about Lake Mary Road. 
We are looking to do that with Stoneman Lake Road and 
Perkinsville Road which will provide access to the Coconino 
National Forest. And so we're hoping to replicate some kind of 
connector.
    We maintain, of course, school routes on Forest Service 
property. We have an agreement with the Forest Service to 
maintain some of the forest roads.
    And also, in talking about the Forest Service, I mean, one 
of the main infrastructures on federal forests is our trees. 
And so, when we're looking to make sure that we have forest 
restoration and forest health and counties, as you know, 
Coconino County is assisting with that with the 4 Forest 
Restoration. And you know, you recently introduced legislation. 
But we need help from all of the Federal Government to get, you 
know, this project underway. And so we think about our 
resources in terms of the trees as something that is 
infrastructure and we need to make sure that we have forest 
health and forest thinning.
    Senator McSally. Great, thank you.
    I am running close on time, but Ms. Lago, a different topic 
on Fossil Creek and the importance of the $6 million that is 
needed to repair Forest Service Road 708 to get access to 
Fossil Creek. I am not sure if you are familiar, but there was 
a meeting scheduled for 60 days that was supposed to happen 
last week on this topic and it was canceled abruptly. A lot of 
folks are pretty unhappy about that. Can we get your commitment 
that we are going to get that meeting rescheduled immediately?
    Ms. Lago. Yes, Senator. I'm so sorry for that. And I will 
make sure it gets rescheduled immediately.
    Senator McSally. Okay, wonderful. Thank you.
    I yield back.
    The Chairman. Thank you, Senator.
    Ms. Archuleta, I think you were the one that said that 
deferred maintenance is basically scheduled maintenance that we 
have not gotten to yet. It has not gotten done yet.
    I want to have a discussion about investments in cyclic 
maintenance. This is effectively what we are trying to do to 
avoid the deferred maintenance, and it is like a doctor telling 
you look, you need to eat right and you need to get exercise. 
Of course, this is what we need to do. And then when we don't 
do it, then we play catch up on the health end.
    But I would ask you, and I will start with you, Mr. 
Cameron. How do we find this balance between the deferred 
maintenance which is substantial and what we have to do to 
maintain just good health here within our public lands, this 
cyclic maintenance? And as you discuss that, walk me through 
how these decisions are made in terms of whether or not a 
matter, an issue, a project, is part of the cyclic or the 
deferred.
    I will give you my example here. I mentioned Polychrome 
Pass out in Denali. We know that the fix here is going to be 
extraordinarily costly. It is not going to be easy. In the 
interim, we have been patching the road together using cyclic 
funds. So you have certain areas of the Denali Park Road that 
are included in the deferred maintenance budget but Polychrome 
Pass area is not. Who makes those decisions? How do we make 
this determination what is deferred and what is in that ongoing 
scheduled cyclical maintenance?
    Mr. Cameron. Senator, we--it varies a little bit from 
bureau to bureau, but at a high level all of our land 
management bureaus have a process for prioritizing their 
maintenance budgets. One could say on one level----
    The Chairman. Who has the authority for that? Is it the 
land manager's job? Who has that oversight, if you will?
    Mr. Cameron. So each Park Superintendent or Refuge Manager 
has got the best information about what is happening on their 
particular properties.
    The Chairman. Right.
    Mr. Cameron. And our bureaus have a tool called Maximo that 
mathematically creates a facility condition index that gives 
you information about how much it would cost to replace a 
particular asset versus the cost of investing in maintenance. 
So, we have, each bureau has got at the national level a 
prioritization process. This information at the field level is 
fed up to the national process and we, at least in the Park 
Service, we try to budget major investments at the national 
level. One exception to that would be under FLREA.
    The Chairman. Would Polychrome Pass then be viewed as a 
major investment because of the cost?
    Mr. Cameron. I would have to look into that. I don't want 
to mislead you, Chairman. I just don't know off the top of my 
head where Polychrome Pass----
    The Chairman. I am just wondering. It sounds like with this 
matrix if it is really expensive, we don't want to use 
scheduled or cyclical funds for that. We are going to put it in 
the deferred maintenance category and then it just gets worse 
and it gets more expensive. So how do we ever achieve this 
balance? Obviously, we are not in balance yet and how do we get 
there?
    I mean, there have been some good ideas, most certainly 
with our public-private partnerships, more than can be done 
outside of appropriated funds. But it seems to me that this 
prioritization issue is something that we have really not been 
able to wrap our hands around.
    Mr. Cameron. Chairman Murkowski, we try to emphasize public 
health and safety-related maintenance and investments first. We 
also worry about the public, the health and safety of our own 
employees who may be working on a facility in terms of employee 
housing, for instance.
    In some sense our cyclical maintenance problems are 
deferred maintenance problems in waiting, and I don't think we 
really have a bright line between this is a deferred 
maintenance problem over here and this is a cyclical 
maintenance problem in another area.
    We try to look at the visitor experience, health and safety 
and access issues and invest our President's '20 budget, $1.1 
billion, in maintenance across the board of all of our bureaus 
where we're going to get the biggest risk reduction, if you 
will, for the dollars that are available.
    The Chairman. So let me ask on that, because Senator King 
has noted the impact on Acadia National Park. They are loving 
it to death in terms of the public visitors.
    In Alaska, we are very proud of our three million visitors 
that come to the state every year. It is extraordinary, given 
the fact that we have a population of 720,000 people. But we 
have certain parks that receive very, very little visitorship. 
I would be very curious to know on the per acre how that all 
factors out. But it doesn't mean that you don't have, for 
instance, life safety issues that need to be addressed.
    I would like to understand a little bit more about how this 
index actually works, because I get those questions from my 
constituents about where are we on the list? And the list is 
something that I feel, oftentimes, is a deep, dark state 
secret. I would love to talk to you more about that.
    Mr. Cameron. We'll be happy to provide something for the 
record for you, Chairman Murkowski, on how our bureaus come up 
with their prioritization schemes and what those lists look 
like.
    The Chairman. I appreciate that.
    I am going to turn----
    Senator Manchin. Just real quick.
    The Chairman. Yes, go ahead, Senator.
    Senator Manchin. Very quickly, I just have a question I 
wanted to ask.
    Mr. Cameron, when you put your budget request in to the 
Executive Branch, to the President, you put that request in and 
then basically it is evaluated and I guess you make adjustments 
from there. The only reason I am saying that is that the 
President's budget proposal cuts to the Park Service 
construction and operations account that funds maintenance 
along with a reduction of 128 full-time workers in those 
accounts. This is on top of the nearly 1,100 full-time staff 
reductions since 2009.
    I don't know how you would make that request and be able to 
take care of deferred maintenance if you are cutting your own 
or requesting to cut them, unless the White House paid no 
attention to you and just went ahead and made those cuts 
unannounced?
    Mr. Cameron. They, actually, in the President's 2020 budget 
we're pleased that the White House gave the Department $900 
million more than was, at least in the President's '19 budget. 
We realize that the Congress, you know, appropriates money as 
they feel is appropriate.
    Senator Manchin. Why are the recommended cuts coming, 
really, from the maintenance account?
    Mr. Cameron. We were, relatively speaking, we tried to 
protect maintenance but we do have a responsibility to provide 
for day-to-day visitor services in the parks and the wildlife 
refuges as well. So it's a difficult balance, Mr. Manchin, you 
know, there's no doubt about it.
    I think, clearly, the Administration----
    Senator Manchin. But I am saying that we are talking about 
deferred maintenance and the majority of the proposed staffing 
cuts for the National Park Service came from maintenance.
    I don't know how you can accomplish the work, no matter how 
much money we give you, if you are not going to have personnel 
to take care of it.
    Mr. Cameron. The--if the Congress is able to enact 
something like the Public Lands Infrastructure Fund or S. 500, 
I guarantee you that we will find the human resources to spend 
that money and spend it well and spend it as quickly as we can 
to address problems at Acadia and in West Virginia and Alaska 
and elsewhere around the country.
    The Chairman. Thank you.
    I am now going to turn to Senator Alexander. We are trading 
places here this morning. While you and Senator Cassidy and 
Senator King continue, I am going to go over to the HELP 
Committee----
    Senator Alexander. Good.
    The Chairman. ----and provide some questions there, but if 
I do not make it back, Senator Cassidy will go ahead and close 
the Committee out. But I want to thank you each for not only 
your appearance here before the Committee but your very 
constructive suggestions, your observations as to how we can do 
more.
    Ms. Lago, I am hopeful that I will be able to come back and 
bring up the issue of Forest Service cabins and how we can do 
more from the volunteer perspective. I hear a lot about it from 
folks in Alaska. So I would like to continue that conversation.
    With that, I am going to excuse myself for a few minutes 
and turn to Senator Alexander, and Senator Cassidy will have 
the gavel.
    Thank you.
    Senator Alexander. Thank you, Madam Chairman.
    Mr. Cameron and to all the witnesses, welcome. My questions 
are for Mr. Cameron.
    Mr. Cameron, the Great Smoky Mountains National Park, which 
is our most visited national park, has a backlog of $235 
million in deferred maintenance. It has an annual appropriation 
of $20 million and no entrance fee because of the way the park 
was created.
    Do you see any way that we can deal with that $235 million 
deferred maintenance backlog without something like the 
proposal that the President has made in his budget and that is 
included in the Restore Our Parks Act to use funding from 
energy development on federal lands to provide mandatory 
funding to cut the maintenance backlog in half?
    Mr. Cameron. Senator Alexander, there's no way in the world 
we could deal with those sorts of problems that you just 
described, whether it's at Great Smoky or at parks like Acadia 
or elsewhere around the country, and we very definitely need 
the legislation that you referred to and are grateful for this 
Committee's interest in the topic and hope you get to markup 
soon.
    Senator Alexander. Yes, I hope so too.
    I mean, we are talking about very basic things here that 
the American people care about. Look Rock Campground on the 
edge of the Smokies is a very popular campground. Now the 
Department is taking steps to reopen it, but it has been closed 
for five years because of leaky roofs, bathrooms that do not 
work, unsanitary conditions and hundreds of families are 
deprived of that.
    We have 38 bipartisan co-sponsors of this legislation. That 
would suggest to me that there is no reason that it should not 
pass the United States Senate if we have a chance to mark it up 
and vote on it. It has the Administration's strong support, 
according to Secretary Bernhardt, the Restore Our Parks Act. In 
fact, it was recommended in the first place by the 
Administration. The outdoors groups and the Administration got 
together and we merged--Senator King, Senator Warner, Senator 
Portman--we merged all of our efforts into one. So we have an 
unusual happening here with the Administration and competing 
Senators all behind the same goal on this agreement.
    You are the budget man. I want to emphasize this is the 
first time, isn't it, that an Administration has supported 
using funding from energy development on federal land to 
provide mandatory funding for the maintenance backlog?
    Mr. Cameron. Yes, sir, to the best of my knowledge that's 
absolutely correct.
    Senator Alexander. Yes.
    Wouldn't it be wise if we have an Administration who is 
willing to do that and 38 United States Senators who are for 
it, to take advantage of the moment because the next 
Administration or even the next Office of Management and Budget 
might have a different attitude?
    Mr. Cameron. That's always a risk, Senator. I agree with 
you completely that the sooner we can pass legislation with 
strong bipartisan support on both sides of Capitol Hill and get 
it in front of the President, the better.
    Senator Alexander. And the Department of the Interior has 
already established a system of priorities for the spending of 
these dollars, am I not right?
    Mr. Cameron. Yes, Senator, that is correct. Each of our 
bureaus has a well-articulated process, and I'll be describing 
that for the record.
    Senator Alexander. Okay.
    I appreciate I had to come from chairing another hearing to 
be here, but I wanted to come to emphasize the importance of 
this piece of legislation, not just to the Great Smokies or to 
Acadia National Park, but to our country.
    It was Ken Burns who has said, ``This is America's best 
idea.'' We do not want millions of Americans to show up at our 
national parks and not be able to use the bathroom, sleep in 
the campgrounds, walk on the trails, enjoy the great outdoors 
that we have.
    Every one, so far as I can tell, of our environmental and 
outdoor organizations are busily supporting this effort. The 
Administration is supporting it. It has bipartisan leadership 
in the Senate. I thank the Chairman for her focus on it, and I 
hope that we can mark it up, put it on the Floor, pass it, turn 
it into law and get the parks, get the deferred maintenance, at 
least cut in half, as the bill would do.
    I thank the Chairman and that concludes my questions.
    Senator Cassidy [presiding]. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for the witnesses and for the hearing today.
    The outdoor recreation economy is booming in my state. 
Twenty-six billion dollars in spending supports over 200,000 
direct jobs and provides the state with about $2.3 billion in 
annual revenue. So yes, I am for anything that is going to 
continue to enhance the opportunities for people to enjoy the 
great Northwest.
    One thing I do not think has been asked yet this morning 
though is the impact of climate on our backlog. We already have 
a backlog but, in my state. Because we are seeing different 
conditions, certainly it might be a little more hidden because 
you are talking about at our higher elevations, but clearly 
this creates more challenges to our area with everything from 
the impact of less snowpack to slides to a whole number of 
things. So has anybody calculated that information of impact?
    Ms. Lago. I'll give that a try.
    Senator Cantwell. Thank you.
    Ms. Lago. I don't believe that we have, but what I would 
offer is, you know, what first came to mind is increasing 
severe weather, floods, hurricanes, wind events. They cause 
tremendous damage to roads, bridges, dams. That all increases 
our backlog of deferred maintenance and makes our 
infrastructure less safe. But as far as a calculation, no, 
Senator, not that I know of.
    Senator Cantwell. Well, I think it is something we should 
consider. My colleague, Susan Collins, and I asked two years 
ago now, and they came out with a report last year. The GAO 
basically said that climate impacts were costing the Federal 
Government about $620 billion during this ten-year window. And 
the next ten-year window, over $1 trillion.
    We know that basically from things like drought and fire 
and what have you, but I do think that we should, in looking at 
our park and recreation needs, think about how--we have worked 
hard in this Committee on both fire and water to try to change 
our management strategies. I think what we are asking here is, 
what is the management strategy as it relates to the backlog, 
given this impact? I see other witnesses nodding. I don't know 
if anybody wants to add anything.
    Ms. Wahl. I would just say that in years of severe wildfire 
and drought and flooding, trails are closed because of the 
safety concerns and oftentimes not open because then they can 
go on the backlog.
    And so, a couple of examples of how this impacts local 
economies is with guides and outfitters who rely on that trail 
or that particular unit for their livelihood, you know, 
potentially that year, they have the permit for that one area 
and severe weather due to climate and closures due to the 
maintenance backlog could impair their ability to do business.
    And then just a recent example. My aunt, who found out I 
was testifying today, goes to the San Gabriel Mountains which 
has millions and millions of folks from LA every year, and lots 
of flooding. Her trail access to a campground that she uses and 
many others use has been closed because of severe flooding in 
California and hasn't been opened because of the backlog.
    So you can see how those things go hand in hand and 
certainly impact access, enjoyment and then local economies.
    Senator Cantwell. Anybody else on that point?
    Ms. Archuleta. Thank you, Senator, I'd like to answer that.
    In Coconino County we have the Schultz Fire and flooding. 
It destroyed 15,000 acres and subsequent flooding cost the 
county in excess of $30 million, closed down forests, impacted 
our recreation economy. And when you look at all of the damage 
that was caused and the loss of the economy, it amounted to 
$120 million.
    So I see the forest restoration and forest health as a 
priority for our county and for other counties in the nation.
    Mr. Cameron. Senator, I'm going to piggyback on that last 
point.
    I believe the Administration has introduced legislation on 
forest health that would attempt to address some of these 
issues. And as has been indicated, there are multiple reasons 
that we have deferred maintenance problems, some of them tied 
to weather or others just tied to natural aging of materials 
over time.
    But we're really pleased that this Committee has taken on 
the opportunity through the legislation that Senator Alexander 
and others have introduced to do something about this issue.
    So thank you.
    Senator Cantwell. Well, I don't really support efforts here 
to take care of the backlog and maintenance for the very point 
that Ms. Wahl just mentioned. I am not for a broad categorical 
exemption that does not allow for public input or environmental 
law because we do not want the same things to happen that she 
just mentioned.
    When you have devastation of our forests it causes problems 
to our streams and runoff to fish, and good stewardship is what 
we need. And so, I hope that we will just take into 
consideration how big the backlog is and the fact that the 
challenge of climate is making it harder. We really do need to 
get this done this year.
    So thank you.
    Thank you, Mr. Chair.
    Senator Cassidy. The Chair calls upon himself.
    Part of this is to discuss solutions. I cannot help but 
notice that the solution is to take offshore revenue that is 
principally generated from the Western and Central Gulf and to 
spread it around the rest of the country. I feel a little bit 
like the turkey on Thanksgiving Day.
    I say that because that cannibalizes the ability of Gulf 
Coast states to repair their coastlines. We have seen 
consequences of those coastlines being in disrepair. Hurricanes 
Katrina and Rita were great examples. And to the degree that we 
lose in Louisiana marshland, we are losing an incredible 
amount. We have lost something more than the State of Iowa. It 
should be the State of Delaware is to the degree to which my 
cities become more vulnerable.
    Put simply, one mile of marshland takes a Cat 5 hurricane 
to a Cat 4 and the second mile to a Cat 3 and the third mile to 
a Cat 2. And to the degree that we have a Google map which 
shows green, and yet I know when I am out there on a boat that 
that land is no longer there but rather it subsided, is a 
marker of the risk to my state.
    Now I have expressed my objections to Senators Portman and 
Alexander that this resource--which although for five years, it 
does not take a rocket scientist to understand would be upped 
for another five and another five and another five--ultimately 
impacts the ability of the Central Gulf to ask for additional 
resources to repair our coastline. So with that preamble and 
wanting to help, I certainly want to help this deferred 
maintenance. I totally accept that.
    I would like to first enter several letters into the 
record. I ask myself, and I thereby approve.
    The first is from October signed by Senate colleagues from 
revenue generating states along the Gulf Coast asking for 
parity in terms of how we disperse energy revenues. This is to 
point out that on land revenue sharing is far more generous to 
the states than it is for offshore revenue sharing.
    The second is a bipartisan letter to the President from 
governors of Alabama, Louisiana, Texas, Mississippi which call 
for the same.
    And the final two letters are from 59 members of the 
Louisiana legislature and 15 Parish Presidents which concerns 
echo those which I've just expressed.
    [The letters referred to follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Cassidy. I also wanted to point out that Senator 
Hyde-Smith and I are working with our Gulf Coast colleagues on 
a proposal we hope to introduce soon to ensure Gulf interests 
are satisfied in this endeavor. But I say this because 
everybody is going to say, oh my gosh, Cassidy is being 
parochial. He is concerned about New Orleans getting wacked by 
a hurricane. He should be concerned about a campground on the 
Smoky Mountains. I am concerned about that campground in the 
Smoky Mountains, but I would also like to suggest, Mr. Cameron, 
I will go to you. The Committee notes that just 112 parks 
charge entrance fees and 80 percent of those fees stay within 
the park where the fee is assessed, active duty and disabled 
veterans do not pay entrance fees, and former Secretary Zinke 
shared with this Committee that whole car loads of visitors can 
enter a park at no cost if they go in with active duty military 
or a disabled veteran. Theoretically, a school bus and the 
driver is active duty and then you would have 40 kids enter 
without paying a fee. Now if we really care about these parks, 
if we really want to have these fixed, would it be reasonable 
that the active duty would enter but those in the bus would 
otherwise pay a fee?
    Mr. Cameron. Senator, I think you raise some interesting 
points. The Administration has entertained making changes to 
our rec fee program over time in terms of how we charge and who 
we charge and where we charge. And frankly, we've gotten less 
than wild enthusiasm.
    Senator Cassidy. So my colleagues or my colleagues who are 
so eager to spend revenue from off the shore of the Gulf Coast 
because by golly, it is such a priority to fix these parks, are 
less eager to actually have a user fee that is actually pretty 
modest, that would apply to those using those parks?
    Mr. Cameron. We're pleased to have the authority that the 
Congress has given us up until now to charge user fees, and I'd 
hazard to guess that we would welcome a broader authority 
where----
    Senator Cassidy. Do you currently have the ability, if you 
have a busload of people who are not disabled or active duty, 
but the driver is, do you currently have the authority to 
charge the fees to everybody else except for that driver who 
would qualify?
    Mr. Cameron. I don't have the answer to that specific 
scenario.
    Senator Cassidy. Does anyone else know the answer to that, 
because I think that is, kind of, a key question. If we really 
care about this issue, we should consider user fees to apply to 
all those to whom it would ordinarily apply.
    Mr. Puskar, do you know the answer to that?
    Mr. Puskar. In general, there are both the traditional 
recreation fees that I think you're speaking to where the norm 
for say, having an America the Beautiful Pass would not, should 
not go to a full busload of people coming in. But yes, you're 
absolutely right, it would be used by say, a regular car with 
four people in it.
    Separate from that though, I would note, there are 
commercial fees that can, when you're talking about say, a 
busload of people coming in for a special event, others, 
guides, outfitters and others will work separately and on a 
different schedule with the land management agencies to pay 
appropriate fees.
    Senator Cassidy. But I gather that according to Zinke there 
is a whole raft of people who are not paying appropriate fees 
because they are entering in under the umbrella, if you will, 
of somebody who Congress has given a pass to.
    Mr. Puskar. I think the Public Lands Alliance would 
certainly agree with you that recreation fees have not been 
maximized in their current state.
    Senator Cassidy. I am out of time, and although I am the 
Chair and I could indulge myself, I won't.
    I will point out that I am a little bit, what is the word, 
less convinced about crocodile tears for our parks when people 
will not assess appropriate user fees on those using those 
parks to defray this expense. It is money left on the table 
which I suspect those users would more than willingly pay. It 
reminds me of an old Russell Long quote. ``Don't tax me, don't 
tax thee, tax the person behind the tree.'' In this case, it is 
the Gulf Coast states, but the consequences, there is less 
money to rebuild my coastline which means that I will continue 
to have the highest rate of erosion and land loss in the 
continental, no, in the entire United States and one of the 
highest in the world.
    Senator King, would you like a second round?
    Senator King. Well, I would like to discuss what you raise, 
because the bill does not allocate, does not take funds away 
from coastal restoration. Specifically the language is, 
``Revenues due and payable to the United States from oil, gas, 
coal and alternative renewable energy development on federal 
land and water that would otherwise be credited, covered or 
deposited as miscellaneous receipts under federal law.'' Then 
it goes on to talk about effects on other revenues. ``Nothing 
in this section affects the disposition of revenues due to the 
United States' special funds, trust funds or states for mineral 
and energy development on federal land and water have been 
otherwise appropriated under federal law, including Gulf of 
Mexico Energy Security Act, Mineral Leasing Act.'' In other 
words, we tried to avoid doing just what you suggest and that 
is these are excess funds, not funds--we are not taking money 
away from any of the allocations to the states. These are funds 
that would otherwise simply go into the Treasury as unallocated 
funds. So we should pursue this discussion because this isn't 
an either/or proposition.
    Additionally, I agree with you that fees have to be part of 
the equation and there are places where there are no fees 
charged and the people who use the parks, just as they do at 
many of the parks, should pay a fee. And I think the Park 
Service should be a little more active in thinking about that.
    Prior to your joining us today, we talked about other ways 
to augment these funds, and I should say that this bill only 
covers half the backlog. We are going to be looking to other 
resources, whether it is matching funds or additional 
resources.
    So we are trying to work this out in such a way that it 
does not diminish, and as you know, I have been a strong 
supporter of your efforts to protect the Louisiana coast. I 
think it is tragic, and I have seen the charts that you have 
shown us of the loss of land. Hopefully we can continue to work 
on this in such a way that will satisfy the interests of 
Louisiana and the coastal, the Gulf Coast states and also the 
people of the United States that are so interested in working 
on this backlog at the parks.
    Senator Cassidy. No, I appreciate that concern, but I will 
point out that if you are on federal lands in a land then you 
get 51 percent of the royalties that derive from that well. But 
if you are on a coastal state, which currently is the Gulf 
Coast but with your case may soon be wind, then royalty is 
capped at 37.5 percent with an overall cap. I am looking at my 
staff to make sure I have this right. Of $500 million? $500 
million. And so, whereas it is 51 percent here, it is 37.5 
percent here with an upward cap.
    And so, my concern is I like to have increased revenue for 
your state if there is wind being generated off your state or 
from my state for the consequences of that offshore 
exploration. And right now, I fear that this will cannibalize 
the ability to achieve that in the future because we have more 
and more money going out to this maintenance.
    Senator King. I think that is a discussion that we need to 
have. But I just wanted you to know that we were not trying to 
take money from the offshore revenues that are so important to 
Louisiana.
    Senator Cassidy. Thank you.
    Senator King. Yes, sir.
    Senator Cassidy. I should also note that statements for the 
record will be received for two weeks after the end of this 
hearing.
    I want to thank the witnesses for coming and for adding to 
our public discourse.
    The hearing is now adjourned.
    [Whereupon, at 11:26 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------   
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             







</pre></body></html>
